Supreme Court Litigation Clinic

January 12, 2021

Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

Via U.S. Mail
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

United States v. Gary, No. 20-444

Dear Mr. Harris,
Enclosed for filing in the above referenced matter, please find an original
plus ten (10) copies of respondent’s Motion for Appointment of Counsel. This
motion is filed pursuant to Rule 39.7, and is accompanied by a Certificate of
Service.
In addition, please find a face-page of the motion, which I kindly request
that you file-stamp and return to my office in the self-addressed, stamped
envelope provided.
Please do not hesitate to contact me at jlfisher@law.stanford.edu if you
have any questions regarding this filing. Thank you very much for your time
and assistance in this matter.
Very truly yours,

Jeffrey L. Fisher

Counsel for Respondent

cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

